      Office of Inspector General
      Audit Report




  Identification and Enforcement of
 RCRA Significant Non-Compliers by
       EPA Region III and the
Virginia Department of Environmental
                Quality



        Audit Report No. 1999-P-00215


            September 20, 1999
Inspector General Division
Conducting the Audit:          Mid-Atlantic Audit Division
                               Philadelphia, PA

EPA Region Covered:            Region III


EPA Program Office Involved:   Office of the Associate Director
    for Enforcement (RCRA)
                               Philadelphia, PA

Virginia Department of
Environmental Quality
Regions Covered:               Tidewater Regional Office
                               Virginia Beach, VA

                               Northern Virginia Regional
                               Office
                               Woodbridge, VA

                               West Central Regional Office
                               Roanoke, VA
             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                       OFFICE OF INSPECTOR GENERAL
                            MID-ATLANTIC DIVISION
                                1650 Arch Street
                      Philadelphia, Pennsylvania 19103-2029
                                  (215) 814-5800


                                September 20, 1999

MEMORANDUM

SUBJECT: Final Audit Report on the Identification and Enforcement of RCRA
         Significant Non-Compliers by EPA Region III and the Virginia
         Department of Environmental Quality
         Audit Report Number 1999-P-00215


FROM:       Carl A. Jannetti
            Divisional Inspector General for Audit (3AI00)

TO:         W. Michael McCabe
            Regional Administrator (3RA00)

Attached is our final audit report on the Identification and Enforcement of Resource
Conservation and Recovery Act (RCRA) Significant Non-Compliers. The overall
objectives of this audit were to evaluate Environmental Protection Agency (EPA)
Region III and Virginia Department of Environmental Quality adherence to the
EPA Enforcement Response Policy, specifically, the identification and enforcement
of Significant Non-Compliers.

This audit report contains findings that describe problems the Office of Inspector
General (OIG) has identified and corrective actions the OIG recommends. This
report represents the opinion of the OIG. Final determinations on matters in this
report will be made by EPA managers in accordance with established EPA audit
resolution procedures. Accordingly, the findings contained in this audit report do
not necessarily represent the final EPA position, and are not binding upon EPA in
any enforcement proceeding brought by EPA or the Department of Justice.

ACTION REQUIRED

In accordance with EPA Order 2750, you as the action official are required to
provide us a written response to the audit report within 90 days of the final audit
report date. For corrective actions planned but not completed by the response date,
reference to specific milestone dates will assist in deciding whether to close this
report.
We have no objections to the further release of this report to the public. Should you
have any questions about this report, please contact Michael Wall or me at (215)
814-5800.

Attachment
                       EXECUTIVE SUMMARY


Objectives         The objectives of our audit were to determine if Region III
                   and the Virginia Department of Environmental Quality
                   (DEQ) took timely and appropriate enforcement actions
                   against the most serious RCRA violators. Specifically, did
                   the Region and the State comply with EPA’s Enforcement
                   Response Policies of 1987 and 1996 by:

                   ‚     Identifying and classifying the most serious violators
                         as “Significant Non-Compliers.”

                   ‚     Taking timely and appropriate enforcement actions in
                         accordance with the applicable Enforcement Response
                         Policy.

                   ‚     Ensuring violators returned to compliance within a
                         timely manner.

                   ‚     Recording accurate data in the Resource Conservation
                         and Recovery Information System (RCRIS).


Results-in-Brief   Our audit disclosed several areas needing improvement with
                   respect to EPA’s Enforcement Response Policy.

                   DEQ Compliance

                   The Virginia Department of Environmental Quality rarely
                   classified facilities with serious RCRA violations as
                   Significant Non-Compliers. Consequently, DEQ did not
                   always take timely enforcement action against these
                   violators. In some cases the State delayed taking any
                   enforcement action, and sometimes these delays persisted for
                   several years. The absence of Significant Non-Complier
                   classifications occurred because DEQ did not incorporate
                   Enforcement Response Policy criteria into its enforcement
                   screening process. The delays occurred because DEQ

                                      i
                                                       Report No. 1999-P-00215
emphasized “compliance assistance” over “escalated
enforcement.” As a result, most Significant Non-Compliers
remained unaware of the gravity of their violations.
Although DEQ usually took appropriate enforcement actions,
these actions were unduly delayed, which may have
increased the potential for harm to human health and the
environment. In our opinion, compliance with EPA’s
Enforcement Response Policy would alleviate these
conditions.

Region III Compliance

The Region did not always classify facilities with serious
violations as Significant Non-Compliers as required by EPA’s
Enforcement Response Policy. Although for the most part
the Region took enforcement action against violators, it did
so at a delayed pace and entered inaccurate information into
RCRIS, the Agency’s information system for RCRA. The
absence of Significant Non-Complier classifications occurred
because the Region did not incorporate the Enforcement
Response Policy criteria into its enforcement screening
process. The delays occurred because the Region’s screening
process to decide the type of enforcement (i.e., informal or
formal) can take up to a year to complete. The RCRIS
inaccuracies occurred largely because regional enforcement
personnel are not adequately trained. As a result, the most
significant violators are unaware of the gravity of their
violations, enforcement is unduly delayed, and RCRIS is
inaccurate. In our opinion, compliance with EPA’s
Enforcement Response Policy and better training would help
remedy these conditions.

Region III Timely and Appropriate (T&A) List

EPA’s Enforcement Response Policy stipulates that a facility
that has not responded to informal enforcement action and
remains out of compliance for 180 days will be classified as a
Significant Non-Complier. Despite this requirement,
Region III allows State Agencies 300 days to consider:
(a) classifying violating facilities as Significant Non-
Compliers, and (b) initiating formal enforcement action.

                   ii
                                     Report No. 1999-P-00215
                   Consequently, facilities can remain non-compliant and
                   increase the potential for harm to human health and the
                   environment.

                   Missing Records

                   The Region did not adequately maintain official RCRA
                   enforcement and compliance files. Specifically, the
                   contractor responsible for custody of the files was unable to
                   provide certain documents pertaining to 10 of the 30
                   facilities in our random sample, taken from fiscal years 1996
                   and 1997 inspections conducted by the Region.


Recommendations We recommend the Region III Administrator ensure that the
                Virginia DEQ:

                   ‚     Adhere to the EPA Enforcement Response Policy;
                         specifically, establish procedures for identifying
                         Significant Non-Compliers, and take appropriate
                         enforcement actions to ensure their timely return to
                         compliance.

                   ‚     Escalate to formal enforcement when a facility is
                         recalcitrant, rather than continue with “compliance
                         assistance.”

                   ‚     Is aware how to refer facilities as possible Superfund
                         candidates to Region III.

                   We also recommend the Region III Administrator:

                   ‚     Ensure regional compliance with EPA’s Enforcement
                         Response Policy regarding classifying Significant Non-
                         Compliers and taking timely and appropriate
                         enforcement action.

                   ‚     Clearly define enforcement officer responsibilities.




                                     iii
                                                       Report No. 1999-P-00215
‚   Conduct monthly Tier I meetings to expedite
    enforcement decisions and actions against violating
    facilities.

‚   Ensure that RCRA personnel are adequately trained
    in RCRIS data entry requirements and establish data
    verification procedures for RCRIS input.

‚   Streamline the enforcement screening process. One
    possibility would be to empower inspectors/enforce-
    ment officers to initiate informal enforcement actions.

‚   Cease the practice of issuing T&A lists to the States
    for facilities out of compliance for 300 or more days.

‚   Institute the practice of issuing T&A lists to the States
    for facilities out of compliance at the 180-day mark,
    and require the States to make a Significant Non-
    Complier determination and take appropriate
    enforcement action.

‚   Establish adequate custody controls over official
    RCRA files.

‚   Conduct a management review of the contractor
    responsible for the RCRA file room.




                iv
                                   Report No. 1999-P-00215
                                        TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTER 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
    INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 1
         Objectives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            1
         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                1
         Noteworthy Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            4
         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       5
         Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    8

CHAPTER 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
    DEQ COMPLIANCE WITH ENFORCEMENT RESPONSE POLICY . . . . . 9
         Significant Non-Compliers Not Designated . . . . . . . . . . . . . . . . . . . . . 9
         Delay in Enforcement Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
         Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
         Region III’s Response to Recommendations . . . . . . . . . . . . . . . . . . . . 17
         Virginia DEQ’s Response to Recommendations . . . . . . . . . . . . . . . . . 17
         OIG’s Evaluation of Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

CHAPTER 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     19
    REGION III COMPLIANCE WITH EPA ENFORCEMENT RESPONSE
         POLICY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               19
         Significant Non-Compliers Not Designated . . . . . . . . . . . . . . . . . . . .                                     19
         Delay in Enforcement Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            20
         Inaccuracies with RCRIS Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             21
         Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               22
         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      23
         Region III’s Response to Recommendations . . . . . . . . . . . . . . . . . . . .                                     23
         OIG’s Evaluation of Region III’s Response . . . . . . . . . . . . . . . . . . . . .                                  24

CHAPTER 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     25
    REGION III TIMELY AND APPROPRIATE LIST . . . . . . . . . . . . . . . . . . . .                                            25
         Region III’s 300-Day T&A List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            25
         Significant Non-Compliers on the FY 1997 T&A Lists . . . . . . . . . . .                                             26
         Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               28
         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      28
         Region III’s Response to Recommendations . . . . . . . . . . . . . . . . . . . .                                     28
         OIG’s Evaluation of Region III’s Response . . . . . . . . . . . . . . . . . . . . .                                  29

                                                              v
                                                                                        Report No. 1999-P-00215
CHAPTER 5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   31
    MISSING RECORDS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   31
         Missing Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               31
         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    33
         Region III’s Response to Recommendations . . . . . . . . . . . . . . . . . . . .                                   33
         OIG’s Evaluation of Region III’s Response . . . . . . . . . . . . . . . . . . . . .                                33

APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
    GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

APPENDIX B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
         Region III’s Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . 39
         Virginia DEQ’s Response to Draft Report . . . . . . . . . . . . . . . . . . . . . 45

APPENDIX C . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51
    DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51




                                                             vi
                                                                                        Report No. 1999-P-00215
                        CHAPTER 1

                      INTRODUCTION


Objectives   EPA advocates taking effective enforcement action against
             the most serious violators of hazardous waste regulations.
             The goal of the Agency’s enforcement program is to attain
             and maintain a high rate of compliance within the regulated
             community, by establishing a comprehensive monitoring and
             inspection program. This program is to address the most
             serious violators with timely and effective enforcement
             actions, in order to return facilities to compliance as quickly
             as possible and to deter future noncompliance.

             The objectives of our audit were to determine if Region III
             and the Virginia Department of Environmental Quality
             (DEQ) took timely and appropriate enforcement actions
             against the most serious violators. Specifically, did the
             Region and the State comply with the Enforcement Response
             Policies of 1987 and 1996 by:

             ‚     Identifying and classifying the most serious violators
                   as “Significant Non-Compliers.”

             ‚     Taking timely and appropriate enforcement actions in
                   accordance with the applicable Enforcement Response
                   Policy.

             ‚     Ensuring violators returned to compliance within a
                   timely manner.

             ‚     Recording accurate data in the Resource Conservation
                   and Recovery Information System (RCRIS).


Background   Hazardous waste is solid waste which may pose a threat to
             human health or the environment because of its quantity,



                                1
                                                  Report No. 1999-P-00215
concentration, or physical, chemical, or infectious
characteristics. In 1976, Congress enacted the Resource
Conservation and Recovery Act (RCRA) because of past
hazardous waste mismanagement. Subtitle C of this Act
established a framework for managing hazardous waste from
its generation to final disposal. RCRA also mandated that
EPA develop a comprehensive set of hazardous waste
regulations. As a result, all solid waste “generators” must
determine if their waste is hazardous, and thus subject to
regulation under Subtitle C. Also, these generators, as well
as any “transporters,” or “treatment, storage, and disposal
facilities” must manage their hazardous wastes in
accordance with Subtitle C. In addition, most treatment,
storage, and disposal facilities must obtain a permit, which
outlines precautions to be taken to manage waste in a
manner that adequately protects human health and the
environment.

Congress intended for the States to implement RCRA,
coupled with oversight by the Federal Government. Under
RCRA Section 3011, EPA awards annual grants to develop
and implement State hazardous waste programs, which
become “authorized” when EPA determines that the State
programs are consistent with the Federal program. The
States negotiate workloads with EPA and have primary
responsibility for Subtitle C administration. However, EPA
retains oversight responsibility, parallel enforcement
authority, and can withdraw authorization if a State
program fails to comply with RCRA regulatory requirements.
Currently, all States within Region III are authorized and
overseen by the Region.

In 1987, EPA issued an Enforcement Response Policy (ERP).
In 1996, EPA revised this policy, which together with several
other documents, define the Federal RCRA Enforcement
Program. Basically, the ERP requires that when inspections
disclose facilities with violations: (a) timely and appropriate
enforcement action is warranted, and (b) such enforcement
action can be either formal or informal depending upon the
seriousness of the violations. Response time guidelines are
established in the ERP for taking formal and informal

                   2
                                     Report No. 1999-P-00215
                  enforcement actions, and the policy establishes criteria for
                  determining the appropriate action to be taken.

Inspections and   Formal enforcement actions, which include administrative
Enforcement       orders, civil or criminal lawsuits, and/or monetary penalties
                  are reserved for Significant Non-Compliers, or “SNCs,”
                  defined as:

                        Those facilities which have caused actual
                        exposure or a substantial likelihood of exposure
                        to hazardous waste or hazardous waste
                        constituents; are chronic or recalcitrant
                        violators; or deviate substantially from the
                        terms of a permit, order, agreement or from
                        RCRA statutory or regulatory requirements.
                        (Note: The 1987 Enforcement Response Policy
                        classified the worst facilities as High Priority
                        Violators).

                  Specific formal enforcement tools include: (a) “Consent” or
                  “Final Orders,” which are agreements between the State or
                  EPA and the facility owner; (b) “Unilateral Orders,” which
                  are issued by the State or EPA to assert the Agency’s
                  position; or (c) a referral to the Department of Justice or the
                  Attorney General’s Office for action.

                  Informal enforcement actions are minimal responses
                  reserved for the less serious, or secondary violators. Such
                  actions include letters of non-compliance, letters of warning,
                  or notices of violation, but not monetary penalties.
                  Nonetheless, a secondary violator can be reclassified as a
                  Significant Non-Complier should the facility fail to return to
                  compliance. Also, where appropriate, in lieu of enforcement,
                  the Enforcement Response Policy advocates “compliance
                  monitoring” or “compliance assistance” to bring facilities into
                  compliance with regulations.

                  Region III inspections are conducted by both the RCRA
                  Compliance and Enforcement Branch (of the Waste and
                  Chemicals Management Division), and by the Region’s
                  Environmental Services Division (in Annapolis, Maryland

                                     3
                                                        Report No. 1999-P-00215
                   and Wheeling, West Virginia). Inspections which yield
                   violations are referred to the RCRA Compliance and
                   Enforcement Branch. After screening for past violations,
                   this Branch evaluates the seriousness of the current
                   violation, its potential or actual harm to public health or the
                   environment, any enforcement actions taken, and whether it
                   is a repeat or recurring violation. The Branch’s
                   recommendation is then formulated into an enforcement
                   action at a quarterly meeting attended by the Environmental
                   Services Division; the Office of Enforcement, Compliance and
                   Environmental Justice; the Office of Regional Counsel; and
                   the Criminal Investigations Division.

                   In Virginia, State RCRA inspections and enforcement actions
                   are conducted by six Department of Environmental Quality
                   (DEQ) regional offices, using as criteria, DEQ’s Compliance
                   and Enforcement Guidance Manual, dated March 12, 1996.
                   As this manual did not fully address the issue of Significant
                   Non-Compliers, few facilities inspected by the State were
                   designated as such. However, DEQ officials informed us that
                   the manual would be revised and fully address this issue.

Timely &           Region III maintains a list of facilities that have not
Appropriate List   responded to State informal enforcement actions and that
                   have been non-compliant for more than 300 days. Monthly,
                   the Region forwards this “timely and appropriate” (T&A) list
                   to each State to determine appropriate enforcement action.
                   Quarterly, the Region holds conference calls to discuss the
                   status of these T&A facilities. According to the Enforcement
                   Response Policy, EPA can initiate its own enforcement action
                   if a State fails to take timely and appropriate enforcement.
                   At the beginning of FY 1997, there were approximately 1,300
                   facilities on the Region’s T&A list; by fiscal year’s end this
                   number had been reduced to 162 facilities.


Noteworthy         Overall, we found Virginia DEQ’s compliance and
Accomplishments    enforcement specialists very knowledgeable about the
                   facilities within their jurisdiction. One particularly strong
                   aspect of the State’s program is that the personnel who
                   perform the inspections, also prepare and sign the informal

                                      4
                                                        Report No. 1999-P-00215
              enforcement letters, and do so usually within a month of the
              inspection. This helped ensure timely enforcement, as many
              of the secondary violators swiftly returned to compliance.


Scope and     This audit was performed in accordance with the
Methodology   Government Auditing Standards (1994 Revision) issued by
              the Comptroller General of the United States as they apply
              to program audits. Our audit included tests and other
              auditing procedures we considered necessary. We evaluated
              the effectiveness of the hazardous waste enforcement and
              compliance programs for Region III and Virginia DEQ. We
              also evaluated the extent of oversight and guidance that
              Region III provided to DEQ in the management of its
              program.

              We conducted our fieldwork in EPA Region III and in three
              Virginia DEQ regional offices. At Region III, we reviewed
              the RCRA Compliance and Enforcement Branch under the
              Waste and Chemicals Management Division. In Virginia, we
              reviewed the Tidewater Regional Office in Virginia Beach,
              the Northern Virginia Regional Office in Woodbridge, and
              the West Central Regional Office in Roanoke. We also
              accompanied Virginia DEQ personnel on two facility visits.

              For Region III, we randomly selected for review 30 of the 54
              RCRA facilities inspected by regional inspectors during fiscal
              years 1996 and 1997. This sample included 21 facilities with
              violations to determine if they should have been classified as
              Significant Non-Compliers and 9 facilities with no violations
              to determine the accuracy of the reports on these facilities.
              However, we were only able to review 20 of the facilities,
              because the Region could not locate the files or inspection
              reports for the remaining 10 facilities.

              We selected Virginia for review because it reported a high
              percentage of violations identified for fiscal years 1996 (21%)
              and 1997 (30%) as compared to other States within the
              Region, and because the State reported an 86% reduction on
              its T&A lists during FY 1997. We selected the three DEQ


                                 5
                                                   Report No. 1999-P-00215
offices based on percentages of violations reported during
inspections, seeking one high, one medium, and one low.

           INSPECTIONS WITH VIOLATIONS
                                  1996       1997
          Tidewater               30%        49%
          Northern Virginia       32%        32%
          West Central            22%        15%

We randomly selected for review the files for 92 of the 638
facilities inspected by the three DEQ offices as follows:

                DEQ INSPECTIONS WITH
                     VIOLATIONS
                                  1996       1997
          Tidewater                13         20
          Northern Virginia        14         18
          West Central             16         11

We also reviewed 54 facilities from EPA Region III’s fiscal
year 1997 T&A lists to determine if the facilities should have
been classified as Significant Non-Compliers, and if so,
whether enforcement and compliance actions were timely.

           T&A LIST FACILITIES REVIEWED
                                11/01/96    3/30/98
          Tidewater                11          1
          Northern Virginia        13          2
          West Central             27          0

At both Region III and DEQ, we reviewed RCRA compliance
and enforcement documents including: inspection reports,

                   6
                                    Report No. 1999-P-00215
notices of violations, consent orders, administrative orders,
and other related correspondence. We compared the data in
RCRIS to other EPA and State records to determine if the
information was accurate.

We reviewed management controls and procedures
specifically related to our objectives. However, we did not
review the internal controls associated with the input and
processing of information into RCRIS or other automated
records systems. We reviewed Region III’s Fiscal Year 1997
Assurance Letter prepared to comply with the Federal
Managers’ Financial Integrity Act and noted no weaknesses
pertaining to the scope of work audited.

In summary, we reviewed enforcement and compliance
procedures taken by the Region and by DEQ against
violators, especially Significant Non-Compliers, or those we
believe should have been classified as such. Specifically, we:

‚     Discussed facility files with Region III and DEQ staff.

‚     Evaluated internal controls over the inspection and
      enforcement and compliance processes.

‚     Reviewed enforcement and compliance actions taken
      by Region III and DEQ against violators and
      evaluated the effectiveness of these actions.

‚     Analyzed the procedures followed for classifying
      Significant Non-Compliers.

Our audit noted weaknesses in both Region III’s and DEQ’s
hazardous waste programs. These weaknesses are discussed
in Chapters 2 through 5.

We completed our survey on June 16, 1998, and initiated an
in-depth audit. We submitted position papers on potential
issues to Region III on January 6, 1999. On the same day we
issued excerpted position papers to DEQ on State-specific
topics. We received DEQ’s response on January 27, 1999,



                   7
                                     Report No. 1999-P-00215
              and the Region’s response on January 29, 1999, and adjusted
              our findings and recommendations accordingly.

              We issued the draft report on June 30, 1999. Region III and
              Virginia DEQ submitted their responses on August 9, 1999.
              We changed the draft report where necessary, but our overall
              positions remained unchanged. The responses and our
              evaluation of the State’s and Region III’s responses are
              summarized at the end of Chapters 2 through 5, and
              provided in their entirety in Appendix B. Virginia DEQ
              declined an exit conference. We held an exit conference with
              Region III on September 8, 1999.


Prior Audit   No recent EPA Office of Inspector General (OIG) audit
Coverage      reports addressed Region III RCRA Enforcement &
              Compliance programs. Our review is similar to an OIG
              Headquarters Audit Division report entitled, Significant
              Non-Complier Enforcement by EPA and Washington State
              (Report No. E1GSF7-11-0019-8100093) issued on March 31,
              1998, and two OIG Eastern Audit Division reports entitled:
              RCRA Significant Non-Complier Identification &
              Enforcement by the Rhode Island Department of
              Environmental Management (Report No. E1GSD8-01-0006-
              9100078) issued on January 21, 1999; and, Region 2's
              Enforcement of the Resource Conservation and Recovery Act
              (RCRA) (Report No. 1999-1-00224) issued on July 21, 1999.




                                8
                                                 Report No. 1999-P-00215
                              CHAPTER 2

  DEQ COMPLIANCE WITH ENFORCEMENT RESPONSE POLICY


                   The Virginia Department of Environmental Quality rarely
                   classified facilities with serious RCRA violations as
                   Significant Non-Compliers. Consequently, DEQ did not
                   always take timely enforcement action against these
                   violators. We also noted that in some cases the State delayed
                   taking any enforcement action, and that sometimes these
                   delays persisted for several years. This absence of
                   Significant Non-Complier classifications occurred because
                   DEQ did not incorporate Enforcement Response Policy
                   criteria into its enforcement screening process. The delays
                   occurred because DEQ emphasized “compliance assistance”
                   over “escalated enforcement.” As a result, most Significant
                   Non-Compliers remained unaware of the gravity of their
                   violations. Although DEQ usually took appropriate
                   enforcement actions, these actions were unduly delayed,
                   which may have increased the potential for harm to human
                   health and the environment. In our opinion, compliance
                   with EPA’s Enforcement Response Policy would alleviate
                   these conditions.


Significant Non-   According to EPA policy, a facility is a Significant Non-
Compliers Not      Complier if it: (a) causes an actual or potential release of
Designated         hazardous waste; (b) is recalcitrant; (c) experiences recurring
                   violations; or (d) significantly deviates from RCRA
                   regulations. DEQ conducted 638 inspections during fiscal
                   years 1996 and 1997. From this amount, we randomly
                   selected 92 facilities, plus 54 other Virginia facilities listed
                   on EPA Region III’s fiscal year 1997 “timely and appropriate”
                   lists. Whereas DEQ designated 2 of these 146 facilities as
                   SNCs, we concluded that 12 facilities should have been so
                   designated.




                                      9
                                                        Report No. 1999-P-00215
                Following are two examples: the first illustrates the
                circumstances regarding one of the facilities deemed as a
                Significant Non-Complier by the State; the second example
                depicts a facility which we believe not only should have been
                a SNC, but also referred to EPA for a possible Superfund
                response.

DEQ Example -   DEQ classified this facility as a Significant Non-Complier
Case VA12       following a December 1996 inspection, which revealed
                violations for: (1) inadequate training of hazardous waste
                handlers; (2) poorly labeled hazardous waste containers;
                (3) open containers; and (4) containers with missing
                accumulation dates. According to the Enforcement Response
                Policy, the State should have brought formal enforcement
                action against this facility by July 1997. Instead, DEQ
                engaged in only informal enforcement actions over a two-
                year period. This occurred because the enforcement
                specialist believed he could gain compliance using the
                underlying threat of a possible formal enforcement order
                containing a civil penalty. However, the cordiality of his
                communications with the facility appeared to belie this
                “threat” in that they contained language such as: “We regret
                the necessity. . . .” and “Won’t you please . . . . ” and “. . . we
                urge you to send it at your earliest convenience.”

                Having been unsuccessful in gaining compliance, in May
                1998, the enforcement specialist recommended that DEQ
                assess a civil charge against the facility noting that “. . . the
                extent and gravity of the violation is major (capability and
                prior history with similar violations, respectively).”
                However, when DEQ attempted to attain the facility’s
                agreement with a consent order, the facility refused to
                cooperate. And, instead of issuing a Unilateral Order to
                force the facility into compliance, DEQ conducted another
                inspection and issued an informal enforcement action. In
                July 1998, DEQ again considered trying the formal
                enforcement route. However, as of January 1999 the formal
                Enforcement Order had yet to be issued, and two years had
                passed since the facility was classified as a Significant Non-
                Complier.


                                   10
                                                       Report No. 1999-P-00215
EPA OIG Example Regarding the second example, we believe this facility should
- Case VA01     have been classified as a Significant Non-Complier, and also
                referred to EPA for possible Superfund action.

                                             Chronology

                    January 1992 – Complaint about illegal dumping of broken
                    batteries and gasoline.

                    August 1992 – The State inspection found problems
                    regarding piles of tires and petroleum, gasoline, and
                    antifreeze spills.

                    July 1993 – DEQ requested facility owner to immediately
                    cease and close operation of unauthorized facility, remove all
                    wastes, and sample soil and groundwater.

                    October 1993 – Soil and water samples revealed levels of
                    lead ranging from 5.4 parts per million (ppm) to 730 ppm
                    (the maximum allowable level is 5 ppm). DEQ continued to
                    inspect the facility over the next two years, but in accordance
                    with its policy of “compliance assistance” also continued to
                    give the owner time extensions.

                    October 1995 – DEQ inspection disclosed the owner placed
                    contaminated soil and batteries on adjacent Navy property,
                    thus creating an unauthorized waste pile in violation of
                    RCRA hazardous waste regulations. Thus, the facility was
                    now subject to RCRA.

                    January 1996 to January 1997 – DEQ threatened owner
                    with enforcement, but no Enforcement Order was issued due
                    to the shortage of personnel. DEQ noted slow progress on
                    the lead contamination and expressed concern over the
                    owner releasing freon from crushed automobiles.

                    February 1997 – DEQ sent a “Notice of Violation” to the
                    owner and threatened formal enforcement action.




                                      11
                                                         Report No. 1999-P-00215
March 1997 – DEQ and owner discussed actions he must
take, including removing tires and checking for more buried
batteries.

May 1997 – Facility assigned a “non-notifier” identification
number; i.e., EPA made aware of hazardous waste on the
site.

September 1997 – Federal judge fined the facility owner
$24,000 and sentenced him to six months of home detention
for crushing thousands of vehicles, without first removing
their CFC-laden freon. This was a violation of the Clean Air
Act.

October 24, 1997 – Formal Enforcement Order signed
whereby the owner agreed to: remove the waste from his site
and the Navy property; conduct soil and groundwater
monitoring; submit and implement closure plans; remove
existing tires within nine months; develop and implement a
petroleum waste management plan; and donate $20,000 to a
local Department of Emergency Medical Services.

November 1997 – Local municipality orders owner to
remove tires located in an area adjoining a campground by
March 1998, because it fears the tires will attract Asian
Tiger Mosquitos, which are known carriers of encephalitis
(inflammation of the brain). The abundance of tires at the
facility was addressed by DEQ in the October 1997 Order as
a solid waste violation.

February 1998 – Owner advised DEQ of his inability to pay
$250,000 for the removal and disposal of approximately 400
tons of waste.

August 1998 – Joint EPA OIG/DEQ site visit; facility
contains approximately 50,000 tires and lacks adequate soil
and groundwater testing. Thus owner is in violation of the
DEQ “Enforcement Order.” [Note: Since the OIG completed
audit fieldwork shortly after this visit, no further status was
obtained.]


                  12
                                     Report No. 1999-P-00215
            The nine additional facilities that we believe should have been
            classified as Significant Non-Compliers were:

FACILITY                                   SUMMARY
Case VA02     Facility had outstanding violations regarding: improper storage of
              hazardous waste for five to six years; manifest requirements; pre-
              transport requirements; and other generator requirements. DEQ
              took informal enforcement in 1997 and formal enforcement in 1998
              without classifying the facility as a SNC, even though there were
              significant deviations from RCRA regulations and the possibility of
              a release of hazardous waste.
Case VA03     An inspection on 04/21/94 noted four violations dealing with
              record- keeping requirements and container requirements. In
              03/96, DEQ determined that two of the 04/94 violations remained
              uncorrected, and although DEQ signed a final order in 06/97 (more
              than 3 years later), it never classified the facility as a SNC, despite
              it being cited for recurring violations.
Case VA04     An inspection on 04/21/94 noted serious violations, such as
              unpermitted storage and treatment of hazardous waste and other
              violations concerning training and record-keeping requirements.
              DEQ did not sign a final order until 06/97, and it never classified
              the facility as a SNC, despite it being cited for recurring violations.
Case VA05     An inspection on 12/14/95 noted several types of violations similar
              to those reported on past inspections, i.e., open containers, poorly
              labeled containers, and inadequate contingency plans. The facility
              was a repeat and chronic violator; therefore, DEQ should have
              classified it as a SNC.
Case VA06     While removing an underground storage tank, the facility
              discovered it contained 2,700 gallons of pentachlorophenol. The
              unpermitted storage of this waste, as well as an actual release of
              hazardous waste, should have resulted in this facility being
              classified as a SNC.




                                        13
                                                           Report No. 1999-P-00215
 FACILITY                                 SUMMARY
Case VA07     An inspection on 12/13/94 noted more than 20 violations, including
              the unpermitted storage of hazardous waste. Although the facility
              removed the waste within 16 days of the inspection, there had been
              the potential for harm to human health and the environment.
              Also, DEQ did not finalize an enforcement order until three years
              after the inspection and never classified the facility as SNC.
Case VA08     An inspection on 01/08/97 noted violations similar to those
              reported for past inspections, i.e., poorly labeled containers,
              missing accumulation dates, and open containers. Although DEQ
              took timely and appropriate enforcement action, it never classified
              this repeat violator as a SNC.
Case VA09     An inspection on 02/12/96 noted several violations, including the
              transportation of waste to an unpermitted facility. Although DEQ
              finalized an Enforcement Order, it failed to classify the facility as a
              SNC, even though it was cited for repeat deviations from RCRA
              regulations.
Case VA10     Five violations remained outstanding from a 01/31/95 inspection.
              DEQ’s primary concern was that the facility’s “drip pad” could not
              contain the hazardous waste because of cracks. DEQ should have
              classified the facility as a SNC, because it was recalcitrant and
              violated the conditions of its 11/96 Consent Order.



Delay in             In addition to not identifying Significant Non-Compliers,
Enforcement          DEQ was also found to have taken delayed enforcement
Action               action against facilities, and that these delays persisted for
                     years. Specifically, DEQ delayed enforcement against 13 of
                     the 94 facilities we reviewed for timeliness (92 facilities from
                     our random sample + 2 Significant Non-Complier facilities
                     from the “Timely and Appropriate Lists”) and these delays
                     ranged from 180 to 1,395 days as follows:




                                        14
                                                           Report No. 1999-P-00215
                         ORIGINAL          ENFORCEMENT          DAYS LATE
            INSPECTION   VIOLATION                                AS OF
 FACILITY      DATE         DATE          DUE        TAKEN        AUDIT

Case VA06    08/25/94     08/25/94       01/95       Pending       1,395
Case VA07    12/13/94     12/13/94       04/95        04/98        1,080
Case VA03    03/21/96     04/21/94       12/94        06/97         910
Case VA04    03/21/96     04/21/94       12/94        06/97         910
Case VA01    01/03/97     09/27/95       10/95        10/97         730
Case VA11    11/19/96     02/02/95       05/95        11/96         570
Case VA12    08/05/97     12/12/96       07/97       Pending        450
Case VA10    01/31/97     01/31/95       09/95        11/96         420
Case VA13    10/31/96     10/31/96       02/98        None          240
Case VA14    10/25/95     10/25/96       01/96        09/96         240
Case VA02    11/01/96     11/01/96       09/97        04/98         210
Case VA15    11/20/95     11/20/95       03/96        09/96         180
Case VA16    02/13/96     02/13/96       05/96        11/96         180

                 Case VA06, at 1,395 days late, was the extreme case of
                 delayed enforcement. We believe this facility should have
                 been classified as a Significant Non-Complier, because it
                 stored pentachlorophenol without a permit for more than
                 nine years. Pentachlorophenol is a hazardous waste which
                 can harm the liver, kidneys, blood, lungs, nervous systems,
                 immune systems, and gastrointestinal tracts. In September
                 1994, the State learned that the soil adjoining the tank was
                 contaminated and that the tank contents had seeped through
                 the subsurface and entered a nearby creek. Nonetheless,
                 DEQ did not classify the facility as a Significant Non-
                 Complier and it delayed taking formal enforcement for
                 several years. According to the enforcement specialist
                 currently assigned to this case, the delay occurred because
                 DEQ was undergoing a major reorganization and the
                 enforcement function was being decentralized.

                                  15
                                                    Report No. 1999-P-00215
Conclusion   DEQ experienced difficulties classifying facilities with
             serious RCRA violations as Significant Non-Compliers and
             taking expedient and appropriate enforcement action against
             such violators. According to DEQ personnel, these problems
             derived from a variety of reasons. These reasons included:

             ‚     DEQ did not incorporate Enforcement Response Policy
                   Significant Non-Complier criteria into its enforcement
                   screening process because State personnel were
                   unaware of these criteria.

             ‚     DEQ personnel did not refer any facilities as possible
                   Superfund candidates because they never thought to
                   do so, or did not know how to do so.

             ‚     Lengthy enforcement delays occurred because DEQ
                   emphasized “compliance assistance” to violators.

             ‚     Frequent reorganizations of DEQ functions severely
                   disrupted enforcement efforts between the Central
                   Office in Richmond and the six State Regional Offices.

             Nonetheless, we did note progress. For example, the
             inspectors and specialists in the DEQ Regional Offices we
             visited were empowered to initiate the enforcement process
             where warranted, and most did so within a month of the
             inspection. This is a “best practice” that we will recommend
             that EPA Region III adopt. Nevertheless, we are convinced
             that DEQ should take further action, namely, to lessen the
             emphasis on “compliance assistance,” and to abide by the
             criteria provided in EPA’s Enforcement Response Policy. We
             also believe that both DEQ and Region III should discuss the
             referral of facilities as possible Superfund candidates.




                              16
                                                 Report No. 1999-P-00215
Recommendations We recommend the Region III Administrator ensure that the
                Virginia DEQ:

                    2.1   Adhere to the EPA Enforcement Response Policy;
                          specifically, establish procedures for identifying
                          Significant Non-Compliers, and take appropriate
                          enforcement actions to ensure their timely return to
                          compliance.

                    2.2   Escalate to formal enforcement when a facility is
                          recalcitrant, rather than continue “compliance
                          assistance.”

                    2.3   Is aware how to refer facilities as possible Superfund
                          candidates to Region III.


Region III’s    The Region concurred with the recommendation regarding
Response to     Virginia DEQ’s compliance with EPA’s Enforcement
Recommendations Response Policy. The Region indicated it is working with the
                Office of Enforcement, Compliance and Environmental
                Justice, and with DEQ to review and finalize the State’s
                Policy such that it is equivalent to EPA's.

                    Regarding escalation of enforcement actions, the Region
                    asserted that many of Region III states (including Virginia)
                    do not have the ability to issue unilateral complaints, and
                    therefore, must rely on negotiated settlements for the
                    majority of their formal enforcement actions.

                    According to the Region, Virginia asserted that the DEQ staff
                    is aware of when and who to contact at EPA when it has a
                    facility that may require action under Superfund.


 DEQ’s Response Virginia responded that its current revision to the DEQ
to              Enforcement Manual established procedures for identifying
Recommendations Significant Non-Compliers and for taking appropriate
                enforcement actions to ensure timely return to compliance.
                The State’s Manual also discusses guidance and procedures

                                      17
                                                        Report No. 1999-P-00215
                   for ensuring that cases involving recalcitrant facilities are
                   escalated to formal enforcement in a timely manner. DEQ
                   emphasized that compliance assistance remains an
                   important part of its efforts to assure consistent compliance
                   among the regulated community. However, when a facility is
                   recalcitrant, or when the environment or public health is at
                   risk, DEQ will escalate such cases to formal enforcement.

                   The State also maintained that its Office of Remediation
                   Programs (ORP) continuously interacts with EPA’s
                   Superfund staff, and cross-trains its ORP and RCRA staff on
                   hazardous waste and Superfund issues.


OIG’s Evaluation   EPA’s and DEQ’s responses concerning DEQ’s establishment
of Responses       of guidance and procedures to comply with the requirements
                   of the EPA Enforcement Response Policy meet the intent of
                   our recommendation.

                   We disagree with Region III’s comments that DEQ does not
                   have the ability to issue unilateral complaints against
                   recalcitrant violators. According to Virginia Code, the State
                   does have the ability to issue unilateral complaints against
                   recalcitrant violators, and that such complaints may include
                   a penalty of up to $10,000. Therefore, we still recommend
                   that formal enforcement be initiated.

                   We disagree with Region III’s comments that DEQ employees
                   were aware when to refer sites to EPA. During our review,
                   several DEQ employees/managers informed us that they had
                   been unaware of the option of referring sites to EPA. DEQ’s
                   actions to provide additional training meets the intent of our
                   recommendation. No further recommendation is offered.




                                     18
                                                       Report No. 1999-P-00215
                              CHAPTER 3

REGION III COMPLIANCE WITH EPA ENFORCEMENT RESPONSE
                        POLICY


                   The Region did not always classify EPA-inspected facilities
                   with serious violations as Significant Non-Compliers as
                   required by EPA’s Enforcement Response Policy. Although
                   for the most part the Region took enforcement action against
                   violators, it did so at a delayed pace and entered inaccurate
                   information into RCRIS, the Agency’s information system for
                   RCRA. The absence of SNC classifications occurred because
                   the Region did not incorporate the Enforcement Response
                   Policy criteria into its enforcement screening process. The
                   delays occurred because the Region’s screening process to
                   decide the type of enforcement (i.e., informal or formal) can
                   take up to a year to complete. The RCRIS inaccuracies
                   occurred largely because regional enforcement personnel are
                   not adequately trained. As a result, the most significant
                   violators are unaware of the gravity of their violations,
                   enforcement is unduly delayed, and RCRIS is inaccurate. In
                   our opinion, compliance with EPA’s Enforcement Response
                   Policy and better training would help remedy these
                   conditions.

                   In the previous chapter we discussed RCRA cases where
                   DEQ inspected the facilities and was responsible for
                   enforcement. In this chapter we will discuss RCRA cases
                   where Region III performed these functions.


Significant Non-   We reviewed inspection reports for 20 facilities, none of
Compliers Not      which had been classified by the Region as Significant Non-
Designated         Compliers. We believe that 4 of the 20 facilities warranted
                   SNC classification as follows:




                                     19
                                                       Report No. 1999-P-00215
               FACILITY                         SUMMARY

                Case 01    Significant and potentially health-threatening
                           violations for elevated levels of lead being stored
                           without a permit for almost three years. There was a
                           substantial potential for harm to the environment
                           because the sludge stored at the facility contained
                           lead toxicity at 12 times the regulatory level and was
                           believed to have been leaking from the storage tank.

                Case 02    Numerous violations considered as chronic/repeat
                           violations since the mid-1980s, as well as violations of
                           the Federal Facility Compliance Agreement.

                Case 03    Chronic/repeat violations for improper labeling and
                           accumulation dates that were also identified in prior
                           inspections as long as four years earlier.

                Case 04    Numerous permit violations considered as major
                           deviations from RCRA regulations.

              Even though the facilities were not classified as Significant
              Non-Compliers, in three of the four cases the Region took
              “formal” enforcement action, the appropriate response for
              Significant Non-Compliers. But in Case 03 the Region opted
              instead to take “informal” enforcement, the minimally
              appropriate response for secondary violators, despite the fact
              that repeated inspections identified identical violations.


Delay in      The Region also did not always take timely enforcement
Enforcement   action against violators. Specifically, Region III delayed
Action        enforcement against 4 of the 20 facilities in our review as
              follows:

               FACILITY    INSPECTION       ENFORCEMENT            DAYS LATE
                              DATE            DUE DATE            (AS OF AUDIT)

                Case 02      12/12/96           06/10/97               350+

                Case 05      03/25/97           09/27/97               250+

                Case 06      03/26/97           09/22/97               250+
                Case 07      06/04/97           12/04/97               180+


                                20
                                                      Report No. 1999-P-00215
                    Regarding the delays, RCRA regional personnel stated that
                    the enforcement screening process takes from several months
                    to over a year to complete. In one instance, an enforcement
                    officer’s unawareness of his responsibility for the screening
                    process led to a case remaining idle for more than a year.
                    We were also informed by Region III personnel that informal
                    enforcement cases are sometimes ignored, because they are
                    considered as a lesser priority than formal enforcement
                    actions. Another element in the time it takes the Region to
                    process an enforcement action is the fact that its inspectors
                    are “observers,” i.e., they do not draw conclusions as to
                    whether or not a facility committed a violation. This decision
                    is made jointly by upper management and the Office of
                    Regional Counsel. Although we did not review the Region III
                    screening process time frames, we did note that the DEQ
                    empowered its compliance specialists to process informal
                    enforcement actions, and that these specialists generally
                    accomplished this within 30 days of the inspection.


Inaccuracies with   Finally, Region III also experienced difficulty with inputting
RCRIS Data          accurate data in RCRIS, the national information system
                    used by EPA for program management, regulation
                    development, and regulation enforcement. We noted
                    discrepancies with such data for fiscal years 1996 and 1997
                    inspections on 13 of the 20 cases we reviewed. These
                    included unrecorded violations, missing or inaccurate
                    compliance dates, invalid violations, duplicate inspections,
                    and incorrect inspection types as follows:

                     FACILITY                     DISCREPANCIES
                       Case 01     8 violations on inspection report, only 1 violation
                                   in RCRIS. Facility should have been coded as a
                                   SNC.

                       Case 02     Facility should have been coded as a SNC for
                                   chronic violations.

                       Case 03     Compliance date of 06/23/97 missing in RCRIS.
                                   Facility should have been coded as a SNC for
                                   chronic violations.


                                      21
                                                           Report No. 1999-P-00215
              FACILITY                    DISCREPANCIES
               Case 04     Facility should have been coded as a SNC for
                           violations considered to be a potential and
                           imminent threat to human health and the
                           environment.

               Case 05     7 violations on inspection report, only 5 violations
                           in RCRIS.

               Case 06     4 violations on inspection report, only 2 violations
                           in RCRIS.

               Case 08     5 violations on inspection report, only 2 violations
                           in RCRIS.
               Case 09     8 violations on inspection report, only 2 violations
                           in RCRIS. Compliance date of 06/26/97 missing
                           in RCRIS.
               Case 10     Compliance date should have been 05/22/97
                           instead of 02/10/97.
               Case 11     Erroneous violation.
               Case 12     Erroneous violation; facility reclassified as
                           Conditionally Exempt Small Quantity Generator
                           and not liable for violations.
               Case 13     Erroneous violation; facility reclassified as a
                           Conditionally Exempt Small Quantity Generator
                           and not liable for violations.
               Case 14     Inspection report cited only 1 violation yet 3
                           violations entered in RCRIS.

             Inaccurate data has a cascading effect on the entire program.
             If the data is incorrect, Region III cannot devote the proper
             number of program resources to the enforcement program,
             and management cannot make sound compliance decisions
             about the worst violators. Inaccurate data could also lead to
             erroneous conclusions of RCRA accomplishments.


Conclusion   According to regional RCRA personnel, Region III has yet to
             incorporate the Agency’s Enforcement Response Policy


                               22
                                                   Report No. 1999-P-00215
                    criteria into its enforcement screening process, or to begin a
                    policy whereby it informs facilities of violations. We were
                    also informed that RCRA personnel were either: (a)
                    unaware of the definition for a Significant Non-Complier; (b)
                    found it too subjective; and/or (c) unfamiliar with RCRIS
                    data-entry requirements for Significant Non-Complier
                    facilities.


Recommendations We recommend the Region III Administrator:

                    3.1   Ensure regional compliance with EPA’s Enforcement
                          Response Policy regarding classifying Significant Non-
                          Compliers and taking timely and appropriate
                          enforcement action.

                    3.2   Clearly define enforcement officer responsibilities.

                    3.3   Conduct monthly Tier I meetings to expedite
                          enforcement decisions and actions against violating
                          facilities.

                    3.4   Ensure that RCRA personnel are adequately trained
                          in RCRIS data entry requirements and establish data
                          verification procedures for RCRIS input.

                    3.5   Streamline the enforcement screening process. One
                          possibility would be to empower the
                          inspectors/enforce-ment officers to initiate informal
                          enforcement actions.


Region III’s    The Region recognizes the importance of properly classifying
Response to     Significant Non-Compliers and taking timely enforcement
Recommendations actions, and has therefore taken actions to correct the
                “perceived” weaknesses in the program. To ensure that SNC
                determinations are made for facilities that warrant such a
                determination, EPA revised its enforcement screening form
                to include additional questions about the nature of the
                violations. [This screening form was provided to the OIG as
                an attachment to EPA’s official response; however, because it

                                      23
                                                         Report No. 1999-P-00215
                   is enforcement sensitive, it is not included as an attachment
                   to this report.]

                   The Region recognizes that it has areas needing improve-
                   ment regarding timely response, and has taken steps to
                   improve its ability to move facilities through the pipeline in a
                   more expeditious manner. These changes include: (a) the
                   use of contractors to provide support during EPA-lead
                   inspections; (b) monthly Tier 1 Meetings; and (c) the addition
                   of one full-time employee to conduct inspections and process
                   enforcement cases. The Region is also looking at shortening
                   the time frame for receipt of inspection reports from the
                   Environmental Services Division, and developing a stand-
                   alone database to track RCRA Enforcement from targeting
                   through compliance.

                   Finally, the Region outlined a number of ongoing actions to
                   focus attention on RCRIS training and establishing data
                   verification procedures that should improve the quality of
                   EPA's RCRIS data.


OIG’s Evaluation   Most of the Region’s responses meet the intent of our
of Region III’s    recommendations, but with notable exceptions. We still
Response           recommend that the Region empower inspectors/enforcement
                   officers to initiate informal enforcement actions to streamline
                   the enforcement process. We strongly believe that this “best
                   practice” of the Virginia DEQ has resulted in extremely
                   timely compliance from the State’s hazardous waste
                   violators.

                   We also believe that shortening the time frame for receipt of
                   inspection reports from the Environmental Services Division
                   by 15 days will not significantly improve the enforcement
                   process, which currently takes anywhere from several
                   months to over a year to complete.




                                     24
                                                        Report No. 1999-P-00215
                               CHAPTER 4

            REGION III TIMELY AND APPROPRIATE LIST


                    EPA’s Enforcement Response Policy stipulates that a facility
                    that has received informal enforcement action and remains
                    out of compliance for 180 days will be classified as a
                    Significant Non-Complier. Despite this requirement,
                    Region III allows State Agencies 300 days to consider:
                    (a) classifying violating facilities as Significant Non-
                    Compliers, and (b) initiating formal enforcement action.
                    Consequently, facilities can remain non-compliant and
                    increase the potential for harm to human health and the
                    environment.


Region III’s 300-   Region III maintains a list of facilities that have not
Day T&A List        responded to State informal enforcement actions, and that
                    have been non-compliant for more than 300 days. The
                    Region forwards this “timely and appropriate” (T&A) list
                    monthly to each State, and holds quarterly conference calls
                    to discuss the enforcement status of the facilities. According
                    to regional personnel these facilities are considered
                    “potential” Significant Non-Compliers. However, we noted
                    that Region III and Virginia DEQ rarely classified such
                    facilities as Significant Non-Compliers at this point.

                    As explained in the Enforcement Response Policy, States
                    with authorized RCRA programs have the primary
                    responsibility for ensuring compliance with the program
                    requirements. However, EPA retains the authority to take
                    independent enforcement action in authorized States in
                    accordance with Section 3008 (a) (2) of RCRA. Pursuant to
                    this Section, EPA may take direct action after notice to the
                    authorized State if the State fails to take timely and/or
                    appropriate action.




                                      25
                                                         Report No. 1999-P-00215
Significant Non-    We randomly selected for review the files for 92 facilities
Compliers on the    inspected by three Virginia DEQ offices. Of these 92
FY 1997 T&A Lists   facilities, there were 19 facilities on the Region’s fiscal year
                    1997 T&A lists. Of these 19 facilities, 6 met the criteria for
                    Significant Non-Complier classification. Although formal
                    enforcement actions were taken in most cases, these actions
                    were untimely. The following table shows the six facilities
                    that were on the fiscal year 1997 T&A lists that met
                    Significant Non-Complier criteria.

                                    NUMBER OF         DAYS OUT OF        DATE OF
                      FACILITY      VIOLATIONS        COMPLIANCE         T&A LIST

                     Case VA12              7                1,749        11/01/96
                     Case VA07              1                1,022        03/30/98
                     Case VA03              4                929          11/01/96
                     Case VA04              13               929          11/01/96
                     Case VA10              5                644          11/01/96
                     Case VA08              6                411          11/01/96

                    Case VA12 was discussed in Chapter 2, as it was classified
                    by Virginia DEQ as a Significant-Non-Complier. The
                    following are summaries of the events related to the
                    remaining T&A cases from our sample, and which we believe
                    should have also been classified as Significant Non-
                    Compliers (or High Priority Violators as defined in the 1987
                    Enforcement Response Policy).

                                                 Case VA07

                    This facility was 1,022 days out of compliance according to
                    the T&A list. The violation, being an unpermitted storage
                    facility for hazardous waste, resulted from an inspection
                    DEQ conducted in December 1994. Because this violation
                    was deemed major (“Class 1”), DEQ should have classified
                    the facility as a “High Priority Violator” and initiated formal
                    enforcement action by April 30, 1995. Instead, DEQ did not

                                       26
                                                          Report No. 1999-P-00215
initiate a formal enforcement action until August 1997,
which the facility did not agree to sign until April 1998, over
three years after the original inspection.

                         Case VA03

This facility was 929 days out of compliance according to the
T&A list, with four violations found during a DEQ April
1994 inspection. Two of these violations were corrected at
the time of another DEQ inspection in March 1996. Due to
the two violations being unresolved since 1994, the State
should have classified the facility as a Significant Non-
Complier and initiated formal enforcement action. The
actual Consent Order was eventually issued in June 1997,
over three years after the original inspection.

                         Case VA04

This facility was 929 days out of compliance according to the
T&A list, with 13 Class 1 and Class 2 violations found during
a DEQ April 1994 inspection. Five of these violations were
corrected at the time of another DEQ inspection in March
1996. Due to the eight violations being unresolved since
1994, the State should have classified the facility as a
Significant-Non-Complier and initiated formal enforcement
action. The actual Consent Order was eventually issued in
June 1997, over three years after the original inspection.

                         Case VA10

This facility was 644 days out of compliance according to the
T&A list, with five violations found during an inspection
DEQ conducted in January 1995. Failing to return to
compliance after DEQ attempted informal enforcement, the
facility should have been classified as a High Priority
Violator in July 1995. Failing that, the facility should have
been classified as a Significant Non-Complier in April 1996,
with the issuance of the revised Enforcement Response
Policy.




                  27
                                     Report No. 1999-P-00215
                                             Case VA08

                    This facility was 411 days out of compliance according to the
                    T&A list, with six violations found during an inspection DEQ
                    conducted in September 1995. When the State reinspected
                    the facility in January 1997, it reported that two of the six
                    violations remained uncorrected. DEQ also reported that
                    there were several new violations that were similar to those
                    found during the September 1995 inspection, as well as
                    during a March 1994 inspection. Based on DEQ’s findings,
                    this facility should have been classified as a Significant Non-
                    Complier.


Conclusion          According to the 1996 Enforcement Response Policy, the
                    facilities discussed above should have been classified as
                    Significant Non-Compliers after 180 days of non-compliance.
                    However, Region III placed these facilities on the T&A lists
                    because their non-compliance exceeded 300 days. The use of
                    the 300-day criteria promotes untimely compliance, because
                    it does not encourage State Agencies, such as Virginia DEQ,
                    to make Significant Non-Complier classifications and formal
                    enforcement decisions at the 180-day mark, as prescribed in
                    EPA’s 1996 Enforcement Response Policy.


Recommendations We recommend the Region III Administrator:

                    4.1   Cease the practice of issuing T&A lists to the States
                          for facilities out of compliance for 300 or more days.

                    4.2   Institute the practice of issuing T&A lists to the States
                          for facilities out of compliance at the 180-day mark,
                          and require the States to make a SNC determination
                          and take appropriate enforcement action.


Region III’s    The Region is currently issuing T&A reports to the states for
Response to     both 180 and 300 days. The 300-day report allows the states
Recommendations to track progress towards issuance of final compliance


                                      28
                                                         Report No. 1999-P-00215
                   agreements and compliance orders. As such, the Region
                   expects to continue providing both reports to the states.


OIG’s Evaluation   According to EPA’s Enforcement Response Policy, facilities
of Region III’s    that have had informal enforcement and remain out of
Response           compliance for more than 180 days should be considered
                   Significant Non-Compliers and have formal enforcement
                   initiated against them. This is not currently being
                   accomplished by Region III. Therefore, our recommendations
                   remain unchanged.




                                     29
                                                       Report No. 1999-P-00215
[This page was intentionally left blank.]




                   30
                                     Report No. 1999-P-00215
                           CHAPTER 5

                      MISSING RECORDS


Missing Data   Region III did not adequately maintain official RCRA
               enforcement and compliance files. Specifically, the
               contractor responsible for custody of the files was unable to
               provide certain documents pertaining to 10 of the 30
               facilities in our sample taken from fiscal years 1996 and
               1997 inspections conducted by the Region. The missing data
               is as follows.

                      FACILITY NAME &              INSPECTION    MISSING
                       FACILITY ID NO.                DATE      DOCUMENTS

                AllWaste Container Service          09/25/96    Inspection
                MDD981737521                                    Report
                Beltsville Agric. Res. Ctr. West    09/25/96    Entire File
                MD2120500119

                Beltsville Agric. Res. Ctr. East    09/25/96    Files after
                MD0120508940                                    1990
                Pepco Benning Generating Sta.       04/28/97    Entire File
                DCD000819516
                Anacostia Marina Inc.               03/04/97    Inspection
                DCD983968538                                    Report
                St. Elizabeth’s Hospital            06/03/97    Inspection
                DC9751305997                                    Report
                USDA National Arboretum             02/19/97    Inspection
                DC7120507432                                    Report
                Garage 4134                         01/12/97    Inspection
                PAR000016071                                    Report
                Steamtown Nat’l. Historic Site      04/14/97    Entire File
                PAD987285715
                St. Mary’s Refining Co.             10/31/96    Inspection
                WVD004337135                                    Report


                                   31
                                                     Report No. 1999-P-00215
In response to our position papers, the Region explained
that:

      Based on discussions with the [contractor name
      deleted] file room staff, for files listed as: no
      inspection report in file; files did not physically exist
      within the file room at the time of the audit since no
      information was contained on the specific facilities in
      the RCRIS data base. The contractor stated that this
      was explained to the IG auditor but the auditor may
      not have understood. Additionally, there were some
      inspection reports that may not have been entered into
      the file room system at the time of the audit.

      For files listed as: cannot locate files; a check was
      made by the contractor on the site specific files and
      there was existing documentation showing who had
      signed out the files (PAD987285715 signed out since
      3/12/96). The contractor believed this information was
      conveyed to the IG auditor during the audit.

      The facility that was listed as: missing files after
      1990; did not have files after 1990 because these files
      were not listed in the RCRIS data base and therefore
      did not exist in the file room at the time of the audit.

Regarding missing inspection reports, it should be pointed
out that the universe from which we sampled was RCRIS
information for fiscal years 1996 and 1997 inspections.
Therefore, if there is data in RCRIS, logic dictates that an
inspection should have been conducted. If there was an
inspection, there should have been an inspection report
placed in the official file and available for review.

Regarding missing files, on several occasions the custodial
contractor confirmed that there was no record that these files
had been checked out. We repeatedly followed up on this
issue with regional RCRA personnel over a period of months.
At no time were we informed that the files were available for
our review.


                  32
                                     Report No. 1999-P-00215
                     The fact remains that it is a prudent business management
                     practice to maintain adequate custody over official files.
                     Region III is paying a contractor to perform this function in
                     the RCRA File Center. That there was such confusion over
                     whether documents and files exist or not, indicates that the
                     controls over these records are inadequate. The contractor
                     was unable to provide us with a third of the documents
                     requested. Finally, we would also point out that during our
                     visits to three individual DEQ offices, we obtained the files
                     for 146 inspections without incident.


Recommendations We recommend the Region III Administrator:

                     5.1   Establish adequate custody controls over official
                           RCRA files.

                     5.2   Conduct a management review of the contractor
                           responsible for the RCRA file room.


Region III’s    Region III concurs with our recommendations and will
Response to     undertake a review to determine where these breakdowns
Recommendations have occurred. In addition, it already has a plan in place to
                update all enforcement file information over the next six
                weeks.


OIG’s Evaluation     EPA’s response meets the intent of our recommendations.
of Region III’s      We ask that the Region provide us a copy of the results of its
Response             review in order that we may close out this issue.




                                       33
                                                          Report No. 1999-P-00215
[This page was intentionally left blank.]




                   34
                                     Report No. 1999-P-00215
APPENDIX A

GLOSSARY




    35
             Report No. 1999-P-00215
[This page was intentionally left blank.]




                   36
                                     Report No. 1999-P-00215
                                      Glossary

CEI – Compliance Evaluation Inspection.

Class 1 Violation – The most serious type of RCRA violation, which is a deviation
from regulations or provisions of formal enforcement orders.

Class 2 Violation – Any violation of a RCRA requirement that does not meet the
criteria for Class I violations.

DEQ – For the purposes of this report, Virginia’s Department of Environmental
Quality.

ERP – Enforcement Response Policy. Provides guidance for classifying violations,
selecting appropriate enforcement action in response to various RCRA violators,
and for taking Federal enforcement action in States with authorized programs.


Generator – Any person or business that produces hazardous waste or first causes
hazardous waste to become subject to RCRA regulations.

Hazardous Waste – Wastes that meet EPA’s definition for solid waste and possess
the characteristics of ignitability, corrosivity, reactivity, or toxicity (as defined by
RCRA).

HPV – High Priority Violator. A category of violator that merits the most stringent
and immediate enforcement response. It is the 1987 ERP equivalent of a SNC for
which formal enforcement was required within 135 days of the inspection.

NVRO – Northern Virginia Regional Office of the Virginia DEQ, which is located in
Woodbridge, VA.

Permit – An official license that specifically allows a facility to treat, store, or
dispose of hazardous waste and outlines the precautions that must be taken to
manage the waste in a manner that adequately protects human health and the
environment.

Regulatory Agency – Either the EPA or State Agencies that are responsible for
implementing, monitoring, and enforcing the RCRA program.




                                           37
                                                              Report No. 1999-P-00215
RCRA – Resource Conservation and Recovery Act. This Congressional Act
encourages environmentally sound methods for disposal of household, municipal,
commercial, and industrial waste.

RCRIS – Resource Conservation and Recovery Information System. The national
RCRA information system used by EPA for program management, regulation
development, and regulation enforcement.

SNC – Significant Non-Complier. The 1996 ERP classification which is used for
the most serious RCRA violators.

State Authorization – The process by which States are given authority to run the
RCRA program instead of EPA.

Subtitle C – The section of RCRA which establishes a regulatory framework for
managing the generation, storage, treatment, and disposal of certain wastes defined
as hazardous.

T&A List – A list of RCRA facilities which have not responded to State informal
enforcement actions and have been non-compliant for more than 300 days.

TIER I – The Region III quarterly meeting, which is held to determine the
appropriate enforcement action to take against RCRA violators.

TRO – Tidewater Regional Office of the Virginia DEQ, which is located in Virginia
Beach, VA.

TSDF – Treatment, Storage and Disposal Facility. Facilities that receive
hazardous waste from generators or other facilities for treatment, storage or
disposal of waste.

WCRO – West Central Regional Office of the Virginia DEQ, which is located in
Roanoke, VA.




                                         38
                                                           Report No. 1999-P-00215
           APPENDIX B

Region III’s Response to Draft Report




                 39
                                Report No. 1999-P-00215
[This page was intentionally left blank.]




                   40
                                     Report No. 1999-P-00215
                                                                         August 9, 1999

SUBJECT: Response to Draft Audit Report on RCRA Identification
         and Enforcement of Significant Non-Compliers

FROM:        W. Michael McCabe
             Regional Administrator (3RA00)

TO:          Carl A. Jannetti
             Divisional Inspector General for Audit (3AI00)

       Thank you for the opportunity to provide comments on the above referenced
document. The draft audit report identifies several problem areas that we have
recognized as areas of concern and have already taken steps that should resolve or limit
the reoccurrence of the issues that you have raised. Our comments are as follows:

Response to Recommendations 2.1 to 2.3

       Chapter 2 recommends that Virginia Department of Environmental Quality
(DEQ) should adhere to the procedures for identifying Significant Non-Compliers (SNC)
and take appropriate action as outlined in EPA's Enforcement Response Policy (ERP),
that DEQ escalate to formal enforcement when a facility is recalcitrant (rather than
continue compliance assistance) and DEQ be aware of how to refer potential Superfund
candidates to Region III. We agree with these recommendations in that we, along with
the Office of Enforcement, Compliance and Environmental Justice, have been working
with DEQ to review and finalize DEQ's ERP such that it is equivalent to EPA's.

       With regard to escalation of enforcement actions, please recognize that many of
Region III states (including Virginia) do not have the ability to issue unilateral
complaints and therefore must rely on negotiated settlements for the majority of their
formal enforcement actions. Furthermore, some are required to exhaust all
administrative (informal) options before they can consider a referral to the state's
Attorney General's Office. As a result of these procedural restraints, we have allowed
the states the full 300 days provided for in the ERP to negotiate final administrative
orders that return the violating facility to compliance.

      Virginia has indicated that its staff is aware of when and who to contact at EPA
when it believes it has a facility that may require action under Superfund. The DEQ,
however, was previously unaware that EPA must record the referral to Superfund in
Resource Conservation and Recovery Information System (RCRIS) to have the facility
removed from the Timely and Appropriate (T&A) list.
Response to Recommendations 3.1 to 3.5

        Chapter 3 identifies four (4) facilities where the Region did not "appropriately"
classify facilities as Significant Non-Compliers and did not take "timely" enforcement
action. These are areas that the Waste and Chemicals Management Division has also
identified as areas of concern. We recognize the importance of properly classifying
facilities that warrant a SNC determination and the need to take timely enforcement
actions. As such, we have taken actions to correct these perceived weaknesses in the
program. To ensure that SNC determinations are made for facilities that warrant such
a determination, we have included questions in our Tier I screening form that will
assist the Tier I Screening Panel in determining whether a facility has caused an actual
exposure or if there is a substantial likelihood of exposure to hazardous waste or
hazardous waste constituents; are chronic or recalcitrant violators or have deviated
substantially from the terms or requirements of a permit, order or from RCRA
statutory or regulatory requirements (see attached screening form). Once a
determination is made whether a facility should be classified as a Significant Non-
Compliers Yes or Significant Non-Compliers No, these designations will be updated in
RCRIS within five working days.

       Regarding timely response, we recognize that we have some areas that need
improvement and we have taken steps to improve our ability to move facilities through
the pipeline in a more expeditious manner. Some of the changes we have made include:

T     Use of contractors to provide support during EPA-lead inspections. Contractors
      provide support to RCRA staff when they conduct inspections. This allows the
      staff to conduct more inspections and/or perform and prepare inspection reports
      in a more timely manner.

T     Tier I Meetings have been held on a monthly basis since approximately March
      1998. This has allowed us to screen cases on a more frequent basis, thereby
      shortening the time required to make an enforcement response recommendation.

T     In December 1998, we added one additional FTE to the Branch in the Wheeling
      Office. In addition to allowing the Region to have a greater presence in the
      western part of the Region, this additional FTE will provide an additional
      resource that can conduct inspections and process enforcement cases, thus
      leading to a more timely response.

Others areas where we are looking to improve include:

T     Shortening the time frame in which inspection reports are received from the
      Environmental Services Division (ESD). Over the past fiscal year, the RCRA
      program received inspection reports from ESD approximately 45-60 work days
      after the inspection date. We have signed a work plan with ESD's Office of
      Environmental Programs that requires that inspection reports be submitted to
       the RCRA Enforcement Program within 45 calendar days after the completion of
       the inspection.

T      We have developed a separate stand-alone data base that will allow us to track
       the entire RCRA Enforcement Pipeline from targeting through completion of
       compliance tasks required as a result of compliance orders. The system has
       built-in tickler dates that will facilitate tracking of time frames described in the
       ERP.

       Regarding your recommendation that RCRA personnel receive RCRIS training
and that we establish data verification procedures, we recognize that this is an area
where we need to focus additional attention and have a number of actions ongoing
(some of which have already been described above) that should improve the quality of
EPA's RCRIS data. We now have a fully trained Senior Environmental Employment
Program person on board who is responsible for our inspection and program tracking
data and have dedicated an additional FTE as an Enforcement Program Manager that
would allow us to improve our oversight of the state data.1 We also have provided
RCRIS data entry training to each Compliance Officer at the end of fiscal years 1996,
1997, and 1998. We hope to extend this training to all data entry personnel to ensure
that the likelihood of a reoccurrence of data errors is minimized.

       The examples that your audit found regarding violations unrecorded in RCRIS
are likely also the result of the enforcement staff not being able to substantiate
violations reported by the inspector. It is very common for the inspector to record
potential violations in their inspection reports that the enforcement staff cannot verify
or backup with the necessary evidence to prove a violation. Because of this, the
violations entered in RCRIS may not match the initial violations described in the
inspection report.

Response to Recommendations 4.1 and 4.2

       Chapter 4 recommends that Region III cease issuing Timely and Appropriate
(T&A) reports to states for facilities out of compliance for 300 days or more and instead
issue T&A reports which identify those out of compliance facilities at the 180 day mark.
We are currently issuing T&A reports to the states for both 180 and 300 days. The 300
day report allows the states to track progress towards issuance of final compliance
agreements and compliance orders. As such, we expect to continue providing both
reports to the states.




       1

 This FTE was filled for approximately 1 month but has since become vacant and the division’s FTE
cap has prevented us from backfilling this position at this time.
Response to Recommendations 5.1 and 5.2

        Chapter 5 recommends that the Region establish adequate custody controls over
official RCRA files and conduct a management review of the contractor responsible for
the RCRA file room. We agree with these recommendations and will undertake a
review to determine where these breakdowns have occurred. In addition, we already
have a plan in place to update all enforcement file information over the next six weeks.
Since the time of the audit, there have been very few complaints received about staff
inability to access facility files.

Conclusion

       In summary, we have recognized many of the areas pointed out in the draft audit
report as matters that need to be addressed and have taken action to correct them.
Also, we have provided several clarifications which we hope you will incorporate into
your final report. If you have any questions regarding these comments, please contact
either Jim Webb at (215) 814-3169 or Harry Daw at (215) 814-3244 of my staff. Again,
thank you for the opportunity to provide our comments.

Attachment

cc:   Tom Voltaggio (3DA00)
      James Webb (3WC30)
      Harry Daw (3WC31)
      Mary Coe (3RC30)
      Bill Early (3RC00)
      Samantha Fairchild (3EC00)
      Richard Pepino (3ES30)
            APPENDIX B

Virginia DEQ’s Response to Draft Report




                  45
                                Report No. 1999-P-00215
[This page was intentionally left blank.]




                   46
                                     Report No. 1999-P-00215
                                   August 9, 1999

Mr. Carl A. Jannetti
Division Inspector General for Audit
United States Environmental Protection Agency
Office of Inspector General
Mid-Atlantic Division
1650 Arch Street
Philadelphia, PA 19103-2029

Dear Mr. Jannetti:

        Thank you for the opportunity to review the draft audit report on "RCRA
Identification and Enforcement of Significant Non-Compliers," covering the federal
fiscal years 1996 and 1997. We are pleased that your report recognized the
appropriateness of DEQ's enforcement actions and the knowledge of our staff. We also
appreciate your recognition of DEQ's empowerment of inspectors and enforcement
specialists as a "best practice" for others to follow.

       While DEQ may have differences of opinion or perspective regarding positions of
the report, we have addressed or are in the process of addressing each of the
recommendations to assure that all hazardous waste violations are properly classified
and handled. DEQ will continue to work with EPA Region III to assure that the
recommendations are fully implemented. Attached are specific responses to each of the
recommendations.



                                        Very truly yours,



                                        Dennis H. Treacy

Enclosure
                     Department of Environmental Quality
      RCRA Identification and Enforcement of Significant Non-Compliers
        Office of Inspector General - Draft Audit Report - June 30, 1999
                       Recommendations and Responses

Recommendations: We recommend that the Region III Administrator ensure that the
Virginia DEQ:

2.1   Adheres to the EPA Enforcement Response Policy; specifically, establish procedures
      for identifying Significant Non-Compliers, and take appropriate enforcement
      actions to ensure their timely return to compliance.

      DEQ Response: Procedures for designating facilities as Significant Non-Compliers
      (SNCs) are in place in DEQ Regional Offices, which have been delegated authority
      over compliance and enforcement cases. Those offices have reviewed their pending
      hazardous waste cases to confirm that violators have been designated as SNCs in
      accordance with those procedures. In its current revision of the Enforcement
      Manual, Virginia DEQ has established procedures for identifying SNCs, and for
      taking appropriate enforcement actions to ensure their timely return to compliance,
      consistent with EPA's Hazardous Waste Civil Enforcement Response Policy. DEQ
      has provided EPA a copy of the current revision for information and comment. It
      is DEQ's intent that adherence to the Enforcement Manual will ensure timely
      return to compliance in accordance with EPA's expectations.

2.2   Escalate to formal enforcement when a facility is recalcitrant, rather than continue
      "compliance assistance."

      DEQ Response: It is DEQ's policy to escalate the enforcement activities when a
      facility is recalcitrant and to reach a prompt conclusion to enforcement actions. The
      draft Enforcement Manual establishes guidance and procedures to ensure that
      cases involving recalcitrant facilities are escalated to formal enforcement in a timely
      manner. Compliance assistance remains an important part of DEQ's efforts to
      assure consistent compliance among the regulated community. However, when a
      facility is recalcitrant, or when the environment or public health is at risk, DEQ will
      escalate such cases to formal enforcement. The current revision of the Enforcement
      Manual has been provided to EPA for information and comment.

2.3   Is aware how to refer facilities as possible Superfund candidates to Region III.

      DEQ Response: DEQ maintains an Office of Remediation Programs (ORP) that
      handles Superfund and other remediation issues and that continuously interacts
      with the Superfund staff in EPA Region III. Sites are referred through the ORP (or
      through the Virginia Department of Emergency Services) as possible candidates for
      Superfund response action. Indeed, in July 1999, three sites were added to the final
      list of sites on the National Priorities List. In addition, the procedure for site
      evaluations under the Virginia Solid Waste Management Regulations specifically
recognizes that sites with releases of hazardous substances may warrant federal
involvement.

To ensure that the staff are aware of the procedures for potential Superfund
involvement, DEQ has conducted cross-training for ORP and RCRA staff in
hazardous waste and Superfund issues. ORP is conducting additional training for
the staff in all media programs in each of the six DEQ Regional Offices.
[This page was intentionally left blank.]




                   50
                                     Report No. 1999-P-00215
                                 APPENDIX C

                                DISTRIBUTION

Office of Inspector General

Office of Inspector General (2421)
Divisional Office of Inspectors General

EPA Region III

Regional Administrator (3RA00)
Director, Waste and Chemicals Management Division (3WC00)
Director, Environmental Services Division (3ES00)
Chief, Grants and Audit Management Branch (3PM70)

Headquarters

Agency Audit Follow-up Coordinator (2724)
Agency Follow-up Official (2710)
Agency Audit Liaison (2201A)
Assistant Administrator for Enforcement and Compliance Assurance (2201A)
Assistant Administrator for Solid Waste and Emergency Response (5101)
Associate Administrator for Congressional and Intergovernmental Relations (1301)
Associate Administrator for Communications, Education, and Media Relations (1701)

Other

Virginia Department of Environmental Quality
General Accounting Office




                                          51
                                                        Report No. 1999-P-00215
[This page was intentionally left blank.]




                   52
                                     Report No. 1999-P-00215
